No.
In the

Supreme Court of the United States
______________

KIM LIPPARD AND BARRY LIPPARD,
Petitioners,
v.
LARRY HOLLEMAN AND ALAN HIX,
Respondents.
______________

On Petition for a Writ of Certiorari to the
Court of Appeals of North Carolina
__________

PETITION FOR A WRIT OF CERTIORARI
______________

JULIAN H. WRIGHT, JR.
Counsel of Record
ERIK R. ZIMMERMAN
BRANDON LAROSE
ROBINSON, BRADSHAW
& HINSON, P.A.
101 N. Tryon St.
Suite 1900
Charlotte, NC 28246
(704) 377-2536
jwright@robinsonbradshaw.com
Counsel for Petitioners

QUESTION PRESENTED
This Court has held that the First Amendment’s
Religion Clauses allow courts to hear some civil claims
that arise from ecclesiastical settings—i.e., settings
relating to matters of church governance and administration—if those claims can be resolved using
neutral principles of law. See Jones v. Wolf, 443 U.S.
595, 602–06 (1979).
The Court also has held that the Religion Clauses
prohibit courts from hearing some other civil claims
that arise from ecclesiastical settings, even if those
claims can be resolved using neutral principles of law.
See Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC, 565 U.S. 171, 196 (2012).
The Court has left open the question of how the
Religion Clauses apply to tort claims, such as claims
for defamation. See id.
The question presented is:
Whether the First Amendment’s Religion Clauses
prohibit courts from hearing defamation claims that
arise from ecclesiastical settings, even when the
claims can be resolved using neutral principles of law.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioners Kim Lippard and Barry Lippard were
plaintiffs-appellants below.
Respondents Larry Holleman and Alan Hix were
defendants-appellees below.
Diamond Hill Baptist Church was an original defendant below, but was voluntarily dismissed and is
not a party here.
No party is a nongovernmental corporation.
RELATED PROCEEDINGS


Lippard v. Holleman, No. 180A17-2, North Carolina Supreme Court. Order denying discretionary
review and dismissing appeal entered September 23, 2020.



Lippard v. Holleman, No. COA18-873, North Carolina Court of Appeals.
Judgment entered
May 19, 2020.



Lippard v. Holleman, No. 13-CVS-2701, North
Carolina Superior Court, Iredell County. Judgment entered April 17, 2018.



Lippard v. Holleman, No. 180A17, North Carolina
Supreme Court. Order dismissing appeal entered
August 17, 2017.



Lippard v. Holleman, No. COA16-886, North Carolina Court of Appeals. Judgment entered May 2,
2017.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT .......................... ii
RELATED PROCEEDINGS ...................................... ii
TABLE OF APPENDICES ........................................ v
TABLE OF AUTHORITIES...................................... vi
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL PROVISION INVOLVED ....... 1
INTRODUCTION ....................................................... 2
STATEMENT ............................................................. 5
A. Factual background ....................................... 5
B. Procedural background ................................. 7
REASONS FOR GRANTING THE PETITION ...... 11
I.

The decision below deepens an entrenched
and acknowledged conflict ................................. 12
A. There is a 6-5 conflict on the question
presented ..................................................... 12
B. The conflict is acknowledged, mature,
entrenched, and outcome-determinative .... 21

iv
II. The decision below is incorrect .......................... 24
III. The question presented is recurring
and important .................................................... 30
IV. This case is an excellent vehicle for resolving
the question presented ...................................... 33
CONCLUSION ......................................................... 35

v
TABLE OF APPENDICES
Page
APPENDIX A:
Opinion of the North Carolina
Court of Appeals (May 19, 2020) .......................... 1a
APPENDIX B:
Order of the North Carolina Superior Court,
Iredell County (Apr. 17, 2018) ............................ 91a
APPENDIX C:
Opinion of the North Carolina
Court of Appeals (May 2, 2017) .......................... 97a
APPENDIX D:
Order of the North Carolina Superior Court,
Iredell County (Apr. 5, 2016) ............................ 114a
APPENDIX E:
Order of the North Carolina Superior Court,
Iredell County (May 29, 2014) .......................... 118a
APPENDIX F:
Order of the North Carolina Supreme Court
Denying Discretionary Review and
Dismissing Appeal (Sept. 23, 2020).................. 120a

vi
TABLE OF AUTHORITIES
Page(s)
Cases
Bandstra v. Covenant Reformed Church,
913 N.W.2d 19 (Iowa 2018)............................. 32, 33
Banks v. St. Matthew Baptist Church,
750 S.E.2d 605
(S.C. 2013) ......................... 16, 17, 22, 23, 26, 27, 28
Bilbrey v. Myers,
91 So. 3d 887 (Fla. Dist. Ct. App. 2012) ............... 33
Bowie v. Murphy,
624 S.E.2d 74 (Va. 2006) ....................................... 19
Brantley v. Banks,
574 U.S. 814 (2014) ............................................... 23
Connor v. Archdiocese of Philadelphia,
975 A.2d 1084 (Pa. 2009) ...................................... 20
Demkovich v. St. Andrew the Apostle Parish,
973 F.3d 718 (7th Cir. 2020) ................................. 32
Dermody v. Presbyterian Church (U.S.A.),
530 S.W.3d 467 (Ky. Ct. App. 2017) ..................... 20
Diocese of Palm Beach, Inc. v. Gallagher,
249 So. 3d 657 (Fla. Dist. Ct. App. 2018) ............. 20
Ex parte Bole,
103 So. 3d 40 (Ala. 2012) ................................ 14, 24

vii
Galetti v. Reeve,
331 P.3d 997 (N.M. Ct. App. 2014) ....................... 20
Hadnot v. Shaw,
826 P.2d 978 (Okla. 1992) ..................................... 15
Heard v. Johnson,
810 A.2d 871 (D.C. 2002) ................................ 15, 21
Hiles v. Episcopal Diocese,
773 N.E.2d 929 (Mass. 2002) .......................... 13, 14
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. EEOC,
565 U.S. 171 (2012) ............................... 2, 22, 29, 31
Hutchison v. Thomas,
789 F.2d 392 (6th Cir. 1986) ............... 13, 14, 24, 33
In re Alief Vietnamese All. Church,
576 S.W.3d 421 (Tex. App. 2019).......................... 16
Jones v. Wolf,
443 U.S. 595 (1979) ............................... 2, 25, 26, 27
Marshall v. Munro,
845 P.2d 424 (Alaska 1993) .................................. 19
McRaney v. N. Am. Mission Bd.
of S. Baptist Convention, Inc.,
966 F.3d 346
(5th Cir. 2020) ......... 9, 17, 18, 19, 23, 24, 26, 28, 33
McRaney v. N. Am. Mission Bd.
of S. Baptist Convention, Inc.,
980 F.3d 1066 (5th Cir. 2020) ............. 18, 22, 23, 31

viii
Michigan v. Long,
463 U.S. 1032 (1983) ............................................. 33
Orr v. Fourth Episcopal Dist. African
Methodist Episcopal Church,
111 N.E.3d 181 (Ill. App. Ct. 2018) ...................... 16
Our Lady of Guadalupe Sch. v.
Morrissey-Berru,
140 S. Ct. 2049 (2020) ................................. 9, 22, 29
Pfeil v. St. Matthews Evangelical
Lutheran Church,
137 S. Ct. 493 (2016) ............................................. 23
Pfeil v. St. Matthews Evangelical
Lutheran Church,
877 N.W.2d 528
(Minn. 2016) ........................ 9, 13, 21, 22, 23, 28, 30
Presbyterian Church v. Mary Elizabeth
Blue Hull Mem’l Presbyterian Church,
393 U.S. 440 (1969) ............................................... 25
Sumner v. Simpson Univ.,
238 Cal. Rptr. 3d 207 (Cal. Ct. App. 2018) .......... 16
Tubra v. Cooke,
225 P.3d 862 (Or. Ct. App. 2010) .............. 20, 21, 24
Constitutional Provisions
U.S. Const. amend. I ...................................................1
Statutes
28 U.S.C. § 1257 ..........................................................1

ix
Other Authorities
Alexander J. Lindvall, Forgive Me, Your
Honor, for I Have Sinned: Limiting the
Ecclesiastical Abstention Doctrine to Allow
Suits for Defamation and Negligent
Employment Practices,
72 S.C. L. REV. 25 (2020)................................. 21, 32
Charles A. Sullivan, Clergy Contracts,
22 EMP. RTS. & EMP. POL’Y J. 371 (2018).............. 32
Mark P. Strasser, A Constitutional
Balancing in Need of Adjustment:
On Defamation, Breaches of
Confidentiality, and the Church,
12 FIRST AMEND. L. REV. 325 (2013) .............. 21, 32

PETITION FOR A WRIT OF CERTIORARI
______________

Petitioners Kim and Barry Lippard respectfully
submit this petition for a writ of certiorari to review
the judgment of the North Carolina Court of Appeals.
OPINIONS BELOW
The opinions of the North Carolina Court of Appeals (App. 1a–90a, 97a–119a) are reported at 844
S.E.2d 591 and 2017 WL 1629377. One order of the
North Carolina Superior Court (App. 91a–96a) is unreported; others (App. 97a–119a) are reported at 2016
WL 5946418 and 2014 WL 12564008. The order of the
North Carolina Supreme Court denying review
(App. 120a–121a) is reported at 847 S.E.2d 882.
JURISDICTION
The North Carolina Court of Appeals entered
judgment on May 19, 2020. App. 1a. The North Carolina Supreme Court denied discretionary review and
dismissed petitioners’ appeal on September 23, 2020.
Id. at 120a-121a. On March 19, 2020, this Court issued a standing order that extended the time for filing
this petition until February 22, 2021. The Court has
jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The First Amendment to the United States Constitution provides, in relevant part: “Congress shall
make no law respecting an establishment of religion,
or prohibiting the free exercise thereof . . . .”

2
INTRODUCTION
This case presents a question on which the lower
courts are deeply and openly divided: Do the Religion
Clauses allow courts to hear defamation claims that
arise from ecclesiastical settings if those claims can be
resolved using neutral principles of law?
This Court’s decisions do not directly answer this
question. The Court has held that the Religion
Clauses allow courts to hear disputes over the ownership of church property if the courts can resolve those
disputes using neutral principles of law. See Jones v.
Wolf, 443 U.S. 595, 602–06 (1979). The Court also has
held that the Religion Clauses prohibit courts from
hearing ministers’ challenges to the termination of
their employment, even if the courts can resolve those
challenges using neutral principles of law. See Hosanna-Tabor Evangelical Lutheran Church & Sch. v.
EEOC, 565 U.S. 171, 194–96 (2012). The Court has
not addressed, however, the Religion Clauses’ application to other cases, such as tort and contract actions.
See id. at 196.
Lacking definitive guidance, the lower courts have
adopted different approaches for applying the Religion Clauses to various civil claims.
These
inconsistent approaches have produced a conflict on
the application of the Religion Clauses to defamation
claims in particular.
To illuminate the conflict, consider an example.
Suppose that a church holds a meeting about whether
to fire a minister. During that meeting, a church official makes two statements. First, he states that the
minister’s religious beliefs diverge from church doctrine. Second, he states that the minister assaulted a
member of the church.

3
Courts agree that the Religion Clauses prevent
the minister from bringing a defamation claim based
on the first statement. Courts disagree, however,
about whether the Religion Clauses prevent the minister from bringing a defamation claim based on the
second statement. This disagreement flows from a
conflict over the governing legal principles.
Six federal courts of appeals and state courts of
last resort would not allow the minister to bring a defamation claim based on the second statement about
assault. These courts hold that the Religion Clauses
prevent courts from hearing defamation claims that
arise from ecclesiastical settings, even when the
claims can be resolved using neutral principles of law.
Because both statements in the example were made
in an ecclesiastical setting—a meeting on a matter of
church governance—these courts would not permit a
defamation claim based on either statement.
Five federal courts of appeals and state courts of
last resort, in contrast, would allow the minister to
bring a defamation claim based on the second statement. These courts hold that the Religion Clauses
allow defamation claims that arise from ecclesiastical
settings if the claims can be resolved using neutral
principles of law. A defamation claim based on the
first statement in the example could not be resolved
using neutral principles because the truth or falsity of
that statement turns on a question of religious doctrine.
Thus, these courts would not allow a
defamation claim based on the first statement. A defamation claim based on the second statement,
however, could be resolved using neutral principles
because the truth or falsity of that statement does not
turn on an ecclesiastical question. Thus, these courts
would allow a defamation claim based on the second

4
statement, even though the statement was made in an
ecclesiastical setting.
The First Amendment should not produce different outcomes in defamation cases based solely on
geographic happenstance. This Court should resolve
the conflict and secure uniformity on this important
federal question.
This case is an excellent vehicle for doing so. In
the decision below, the North Carolina Court of Appeals joined the courts holding that the Religion
Clauses bar defamation claims that arise from ecclesiastical settings, even if the claims can be resolved
using neutral principles of law. See App. 2a, 51a. The
court resolved petitioners’ defamation claim based on
the Religion Clauses alone, so this case squarely presents the question on which courts are divided.
A few days ago, the Court also received a petition
seeking review of a Fifth Circuit decision that joined
the opposite side of the conflict from the North Carolina Court of Appeals. See Pet. for Writ of Cert.,
N. Am. Mission Bd. of S. Baptist Convention, Inc. v.
McRaney, No. __ (U.S. Feb. 17, 2021) (“McRaney
Pet.”). That petition overlaps with this one and bolsters the conclusion that review is warranted here. At
the same time, this case differs from McRaney in some
factual respects that make this case an especially useful vehicle for addressing the question presented. See
infra pp. 34–35. Whether or not the Court grants review in McRaney, therefore, the Court should grant
review in this case.

5
STATEMENT
A. Factual background
1. During the time period relevant to this case,
petitioners Kim and Barry Lippard were members of
Diamond Hill Baptist Church. App. 3a. Diamond Hill
also employed Mrs. Lippard as the church pianist, a
position she held for 34 years. Id. at 3a, 98a; ROA11.1
Respondent Larry Holleman was Diamond Hill’s pastor, and respondent Alan Hix was the minister of
music. App. 3a.
2. In August 2012, a dispute arose between
Mrs. Lippard and Hix. App. 3a. The details of that
dispute are immaterial for purposes of this Court’s review. In general terms, however, the dispute related
to a music solo assignment for a church service. Id.
Hix had assigned Mrs. Lippard the solo, but he later
reassigned it to another choir member. Id.
Holleman met with Diamond Hill’s deacons to discuss whether, in light of the dispute, Mrs. Lippard
should be dismissed from her position as church pianist. App. 3a–4a. Holleman also attempted to resolve
the dispute through reconciliation sessions. Id. Those
sessions proved unsuccessful. Id. The deacons and
the church’s personnel committee later recommended
that Mrs. Lippard be dismissed. Id. at 4a.
The final decision on whether to dismiss Mrs. Lippard rested with the Diamond Hill congregation.
App. 4a. The congregation met in late November 2012
to consider the issue. Id. at 5a.

“ROA” refers to the record on appeal in the North Carolina
courts.
1

6
At that meeting, Holleman read and distributed a
document explaining the recommendation to remove
Mrs. Lippard from her position. App. 5a. The document stated that Mrs. Lippard had been unwilling to
commit to the church’s reconciliation process or
acknowledge wrongdoing. Id. at 5a, 22a. It also
stated, among other things, that Mrs. Lippard had
made slanderous comments about a fellow choir member, and that she had accused Hix of lying and hiding
sheet music. Id. at 23a; see also id. at 99a–100a.
The congregation met to vote a few days later, in
early December 2012. App. 5a. The congregation
voted against dismissal, and Mrs. Lippard remained
Diamond Hill’s church pianist. Id. at 5a–6a.
3. Holleman and Hix continued, for several
months, to make statements about the Lippards and
the parties’ underlying dispute to members of the congregation. App. 100a.
For example, Holleman stated in an April 2013
email that Mr. Lippard had “blocked [Hix’s] exit from
the music room and was aggressively going after
[Hix], pointing his finger in [Hix]’s face,” which Holleman had “recently learned was illegal and could
have very well been reported as a crime.” App. 6a.
Hix also stated in a January 2013 email that there
were “verifiable facts and Biblical scriptures which
[the Lippards were] openly denying and defying.”
App. 6a, 27a.
4. Mrs. Lippard eventually resigned as church pianist, and the Lippards stopped attending Diamond
Hill. App. 6a–7a.

7
B. Procedural background
1. The Lippards brought a common-law defamation claim against Holleman and Hix in North
Carolina state court. App. 7a. The claim rested on a
number of statements, including those described
above. See, e.g., id. at 22a–23a, 27a, 34a.2
Holleman and Hix moved to dismiss the defamation claim, arguing that it raised ecclesiastical
questions. See App. 101a. The trial court denied the
motion. Id. at 118a–119a.
Holleman and Hix later moved to dismiss again.
App. 102a. A different trial judge heard the motion
and granted it, holding that the Religion Clauses
barred the defamation claim. Id. at 116a–117a.
The Lippards appealed, and the North Carolina
Court of Appeals vacated the trial court’s decision.
See App. 97a–98a. The appellate court ruled that
state law did not allow the second trial judge to overrule the first. Id. at 112a. As part of its reasoning,
the Court of Appeals held that some of the defamatory
statements at issue could be understood as libel per
se, including Holleman’s accusation of criminal conduct against Mr. Lippard. Id. The court remanded for
further proceedings. Id. at 113a.
2. On remand, Holleman and Hix moved for summary judgment. App. 9a. They argued, among other
things, that the Religion Clauses of the First Amendment barred the defamation claim. See id.; ROA204.
The Lippards originally named Diamond Hill as a defendant,
asserting claims against it for defamation and ultra vires activity. App. 7a. The Lippards later voluntarily dismissed the
claims against Diamond Hill. Id. The only remaining claim is
the defamation claim against Holleman and Hix. Id.
2

8
The trial court granted summary judgment for
Holleman and Hix. App. 91a–96a. It ruled that the
Religion Clauses foreclosed the Lippards’ claim. Id. at
94a. It also ruled that summary judgment was warranted on unrelated state-law grounds. Id. at 94a–
96a. For example, in the court’s view, the statements
at issue were not defamatory per se. Id. at 95a.
3. The Lippards appealed. They challenged all of
the trial court’s rationales for granting summary judgment, including its First Amendment ruling.
A divided panel of the Court of Appeals affirmed.
App. 2a. The majority addressed only the First
Amendment question, ruling that the Religion
Clauses barred the defamation claim. Id. at 2a, 51a.
The majority expressed no view on the other grounds
in the trial court’s order. See id. at 51a.
On the First Amendment question, the majority
held that the Religion Clauses foreclose defamation
claims that arise from ecclesiastical settings—specifically, claims resting on statements “made during an
internal religious dispute regarding ecclesiastical
matters.” App. 2a; see also id. at 51a (similar).
The majority also held that the Religion Clauses
foreclose defamation claims when the defamatory
statements’ truth or falsity turns on ecclesiastical
questions, and thus cannot be resolved using neutral
principles of law. See App. 19a (“For defamation
claims, we must consider whether a statement is true
or false without examining or inquiring into ecclesiastical matters or church doctrine.”); see also id. at 15a–
16a (referring to the application of neutral principles
of law).

9
The majority thus held that an inability to resolve
a defamation claim using neutral principles is sufficient, but not necessary, for the Religion Clauses to
bar the claim. Even if a defamation claim can be resolved using neutral principles, the majority’s
approach bars the claim if the statement at issue was
made in an ecclesiastical setting.3
Applying that approach, the court concluded that
the Religion Clauses barred the Lippards’ defamation
claim as to some of the statements at issue due to an
inability to apply neutral principles of law. For example, the court concluded that the truth or falsity of
Holleman’s statements that Mrs. Lippard was unwilling to commit to the church’s reconciliation process
turned on ecclesiastical questions. See App. 24a.
The court held that the Religion Clauses barred
the Lippards’ claim as to several other statements,
however, based solely on the ecclesiastical setting in
which those statements were made. For example, the
majority acknowledged that Holleman’s statement
about Mr. Lippard accosting Hix did not “directly involve scripture.” App. 34a. The majority did not
The Court of Appeals described the body of law governing the
Religion Clauses’ application to civil claims as the “ecclesiastical
entanglement doctrine.” E.g., App. 11a, 15a–17a. Other courts
use different names for the same concept, such as “ecclesiastical
abstention doctrine” or “church autonomy doctrine.” See, e.g.,
McRaney v. N. Am. Mission Bd. of S. Baptist Convention, Inc.,
966 F.3d 346, 347 (5th Cir. 2020); Pfeil v. St. Matthews Evangelical Lutheran Church, 877 N.W.2d 528, 532 (Minn. 2016). Many
courts, including this Court, also use the phrase “ministerial exception” to describe the Religion Clauses’ specific application to
employment claims brought by certain employees against their
religious employers. See, e.g., Our Lady of Guadalupe Sch. v.
Morrissey-Berru, 140 S. Ct. 2049, 2060–61 (2020).
3

10
dispute that neutral principles of law could thus be
applied with respect to that statement. Nor did it dispute that neutral principles could be applied with
respect to Holleman’s statement that Mrs. Lippard
had slandered a fellow choir member and accused Hix
of lying, and to Hix’s statement that the Lippards
were denying verifiable facts. See id. at 23a–24a,
27a–28a. Yet the majority ruled that the Religion
Clauses prevented the Lippards from pursuing a defamation claim based on these statements because the
statements arose from an ecclesiastical setting. See
id. at 23a–24a, 27a–28a, 30a–34a, 49a–50a.
4. Chief Judge McGee dissented from the majority’s holding that the Religion Clauses bar a
defamation claim merely because the claim arises out
of an ecclesiastical setting. App. 52a; see also id. at
77a–78a. She concluded that the First Amendment
instead forecloses a defamation claim only when the
statements’ truth or falsity turns on a religious question. Id. at 53a. If, in contrast, a court can resolve the
claim using neutral principles of law, Chief Judge
McGee would have held that the claim may proceed.
See id. at 66a–68a.
Applying that approach, Chief Judge McGee concluded that the Religion Clauses allow the Lippards
to proceed with their defamation claim based on several of the statements at issue. See App. 70a–71a.
For example, in her view, the Religion Clauses did not
protect Holleman’s statement about Mr. Lippard confronting Hix; nor did they protect Hix’s statement that
the Lippards were denying verifiable facts. See id. at
74a–75a, 79a–81a. Chief Judge McGee reasoned that
the truth or falsity of these statements did not turn on
religious questions. See id.

11
Chief Judge McGee nevertheless concurred in the
affirmance of summary judgment. App. 53a–54a. In
her view, the statements at issue were not defamatory
per se, and the Lippards had not shown special damages. See id. at 81a. She thus concluded that the
defamation claim failed under state law. See id. Chief
Judge McGee did not reconcile this reasoning with the
Court of Appeals’ conclusion in the Lippards’ previous
appeal that some of the statements at issue could be
understood as libel per se. See id. at 112a.
5. The Lippards sought review of the panel’s First
Amendment ruling in the North Carolina Supreme
Court under N.C. Gen. Stat. §§ 7A-30 and 7A-31. The
court denied review. App. 120a–121a.
REASONS FOR GRANTING THE PETITION
This Court’s review is warranted for several reasons.
First, courts are divided on the question presented.
Six federal courts of appeals and state courts of
last resort—the Sixth Circuit; the Alabama, Massachusetts, Minnesota, and Oklahoma Supreme Courts;
and the District of Columbia Court of Appeals—agree
with the panel majority in this case. These courts hold
that the Religion Clauses foreclose defamation claims
that arise from ecclesiastical settings, even if the
claims can be resolved using neutral principles of law.
Five other federal courts of appeals and state
courts of last resort—the Fifth Circuit and the Alaska,
Pennsylvania, South Carolina, and Virginia Supreme
Courts—agree with the partial dissent in this case.
These courts hold that the Religion Clauses allow defamation claims that arise from ecclesiastical settings

12
if the claims can be resolved using neutral principles
of law.
Second, the decision below is erroneous. The
panel majority’s approach effectively grants a license
to defame in ecclesiastical settings. This Court’s decisions do not justify that result.
Third, the question presented is recurring and important. The many decisions on each side of the
conflict show that this question arises with regularity.
The question also has significant practical and doctrinal implications.
Finally, this case is an ideal vehicle for resolving
the question presented.
The Court of Appeals
squarely addressed that question, and there are no obstacles to this Court’s review.
I.

The decision below deepens an entrenched
and acknowledged conflict.

The lower courts are at odds on the question presented.
This split is acknowledged, mature,
entrenched, and outcome-determinative. The Court
should grant review to eliminate the conflict.
A. There is a 6-5 conflict on the question
presented.
1. Six federal courts of appeals and state high
courts hold that the Religion Clauses bar defamation
claims that arise from ecclesiastical settings, even if
the claims can be resolved using neutral principles of
law. Several intermediate state appellate courts, including the court below, have recently held the same.
a. The Minnesota Supreme Court’s decision in
Pfeil v. St. Matthews Evangelical Lutheran Church,

13
877 N.W.2d 528 (Minn. 2016), exemplifies this approach. In Pfeil, two church members claimed that
they were defamed at a church meeting held to excommunicate them and at a later hearing held to
reconsider the excommunication. See id. at 531. The
alleged defamation included statements that the
members had “perpetuated falsehoods” and accused a
pastor of theft. Id. at 538.
The members argued that the Religion Clauses allow a defamation claim if the claim can be resolved
using neutral principles of law. See id. The Minnesota Supreme Court rejected that argument. See id.
at 538, 541. The court held that the proper inquiry
instead focuses on the setting in which the statements
at issue were made. See id. at 541–42. If the statements were made “in the context of a religious
disciplinary proceeding” and disseminated only
within the religious organization, the court held that
the First Amendment prohibits a defamation claim.
Id. at 542. The court concluded that the statements
in Pfeil satisfied this categorical rule; the Religion
Clauses therefore foreclosed the members’ claim. See
id. at 541–42.
As Pfeil observed, the Massachusetts Supreme Judicial Court and the Sixth Circuit have adopted the
same categorical, setting-based approach to defamation claims. See id. at 537 n.9 (citing Hiles v.
Episcopal Diocese, 773 N.E.2d 929 (Mass. 2002);
Hutchison v. Thomas, 789 F.2d 392 (6th Cir. 1986)).
In Hiles, the Massachusetts Supreme Judicial
Court held that the Religion Clauses barred a priest’s
defamation claim because the defamatory statement
at issue was made in connection with a disciplinary
proceeding against him. See 773 N.E.2d at 935–37.
An “absolute First Amendment protection” exists, the

14
court concluded, “for statements made by a Church
member in an internal church disciplinary proceeding.” Id. at 937 n.12. Under that rule, it is immaterial
whether the defamation claim can be resolved using
neutral principles. Indeed, no obstacle to applying
neutral principles was apparent in Hiles, when the
statement at issue accused the priest of a sexual relationship with a parishioner. See id. at 933.
In Hutchison, the Sixth Circuit similarly held that
the Religion Clauses foreclosed a minister’s defamation claim (among others) because that claim arose
from disciplinary proceedings against the minister.
See 789 F.2d at 392–93, 396. Here again, it did not
matter whether the defamation claim, which rested
on statements depicting the minister as unable “to
work with congregations and get along with members,” id. at 393, could be resolved using neutral
principles of law. To the contrary, the court concluded
that the neutral-principles framework from Jones applies only to church property disputes. See id. at 396.
Three other state high courts have also embraced
the same approach:


The Alabama Supreme Court held that the
Religion Clauses barred a pastor’s defamation
claim because the statements at issue were
made in connection with investigating and removing the pastor. See Ex parte Bole, 103
So. 3d 40, 48, 51, 71–72 (Ala. 2012). The court
reached that result without disputing the pastor’s argument
that
the
statements
themselves (which accused the pastor of misappropriating funds) did not address
ecclesiastical matters. See id. at 48, 51.

15


The D.C. Court of Appeals held that the First
Amendment foreclosed a pastor’s defamation
claim because the statements at issue were
made in the course of terminating the pastor’s
employment. See Heard v. Johnson, 810 A.2d
871, 874–75, 883–85 (D.C. 2002). It made no
difference whether the claim could be resolved
using neutral principles of law because the
D.C. Court of Appeals, like the Sixth Circuit,
concluded that the neutral-principles framework applies only to church property disputes.
See id. at 880.



The Oklahoma Supreme Court held that the
Religion Clauses barred two church members’
defamation claims because the statements at
issue, accusing the members of fornication,
were made in connection with proceedings to
excommunicate them. See Hadnot v. Shaw,
826 P.2d 978, 980–81, 987–988 (Okla. 1992).

b. The North Carolina Court of Appeals embraced
this same categorical approach below. The court held
that the Religion Clauses foreclose a defamation claim
that rests on statements “made during an internal religious dispute regarding ecclesiastical matters.”
App. 2a; see also id. at 51a (similar). That rule bars
defamation claims that arise from ecclesiastical settings, even if the claims can be resolved using neutral
principles of law. Indeed, the court did not dispute
that neutral principles could be applied to determine
the truth or falsity of several of the statements at issue in this case. The court nevertheless held that the
Religion Clauses barred the Lippards’ claim based on
those statements because the statements were made
in connection with an ecclesiastical dispute. See supra pp. 9–10.

16
Intermediate appellate courts in several other
states also have recently taken the same view of the
question presented as the North Carolina Court of Appeals and the other courts discussed above.4
2. Five federal courts of appeals and state high
courts (and several intermediate state appellate
courts) have taken the opposite view of the question
presented. These courts hold that the Religion
Clauses do not categorically bar defamation claims
that arise from ecclesiastical settings. Rather, consistent with the partial dissent in this case, these
courts hold that the Religion Clauses permit defamation claims that can be resolved using neutral
principles of law, even if those claims arise from ecclesiastical settings.
The South Carolina Supreme Court’s decision in
Banks v. St. Matthew Baptist Church, 750 S.E.2d 605
(S.C. 2013), illustrates this approach. Banks arose
when a pastor told his congregation that three of the
church’s trustees had mismanaged church property
and lied. See id. at 606–07. At the pastor’s urging,

See, e.g., In re Alief Vietnamese All. Church, 576 S.W.3d 421,
424–25, 433–35 (Tex. App. 2019) (holding Religion Clauses
barred deacon’s defamation claim because statements at issue,
which accused deacon of adultery, were made in connection with
internal dispute over church governance); Sumner v. Simpson
Univ., 238 Cal. Rptr. 3d 207, 221–23 (Cal. Ct. App. 2018) (holding
same for minister’s defamation claim because statements at issue were connected with terminating minister’s employment);
Orr v. Fourth Episcopal Dist. African Methodist Episcopal
Church, 111 N.E.3d 181, 190–192 (Ill. App. Ct. 2018) (similar).
4

17
the congregation removed the trustees from their positions. See id. at 606. When the trustees sued the
pastor for defamation, he argued that the Religion
Clauses barred the claim because he made his statements in an ecclesiastical setting: a congregational
meeting about removing the trustees from their roles.
See id. at 607–08.
The South Carolina Supreme Court rejected that
argument. It held that the Religion Clauses could not
bar the trustees’ defamation claim based solely on the
ecclesiastical setting in which the pastor made his
statements. See id. at 608. Rather, it was necessary
to determine whether the claim could be decided using
neutral principles of law. See id. at 607–08.
Had the pastor stated that the trustees violated
church law, the court observed, the claim would have
required resolution of religious matters, and the Religion Clauses would have barred the claim. Id. at 608.
The statements at issue, however, were “simple declarative statements about the actions of the
[t]rustees.” Id. at 607. The court thus concluded that
the defamation claim could be resolved using neutral
principles, and that the Religion Clauses allowed the
claim to proceed. See id. at 607–08.
The court summarized its holding in terms that
highlight the conflict on the question presented: “We
cannot allow the setting in which the statements were
made to defeat the jurisdiction of the circuit court
where the claim is susceptible to resolution through
neutral principles of law.” Id. at 608.
The Fifth Circuit recently adopted the same approach as the South Carolina Supreme Court. See
McRaney v. N. Am. Mission Bd. of S. Baptist Convention, Inc., 966 F.3d 346 (5th Cir. 2020). The Fifth

18
Circuit then nearly took the question en banc, with
eight judges dissenting from the denial. See McRaney
v. N. Am. Mission Bd. of S. Baptist Convention, Inc.,
980 F.3d 1066, 1066–67 (5th Cir. 2020) (denying petition for rehearing en banc by a 9-8 vote); id. at 1067
(Ho, J., dissenting from denial); id. at 1075 (Oldham,
J., dissenting from denial).
In McRaney, the hierarchy of the Southern Baptist Church terminated a minister from his leadership
position. See 966 F.3d at 349 (panel op.); 980 F.3d at
1067–68 (Ho, J., dissenting from denial). The minister sued a religious organization within that
hierarchy for defamation, alleging that the organization made false statements that led to his
termination. See 966 F.3d at 349 (panel op.). The organization argued that the Religion Clauses barred
the defamation claim because the statements were
made in connection with ecclesiastical matters, including “ministry strategies.” Id. at 350 n.2.
As the judges who voted to rehear the case en banc
explained, an approach prohibiting defamation claims
that arise from ecclesiastical settings would have required dismissal of the minister’s claim. See 980 F.3d
at 1067, 1070 (Ho, J., dissenting); id. at 1075 (Oldham, J., dissenting). The panel, however, rejected
that approach. See 966 F.3d at 349–51 & n.2. The
correct approach, the panel held, is to examine
whether the defamation claim requires the court to
address “purely ecclesiastical questions,” or whether
the claim can instead be resolved under neutral principles of law. Id. at 349–50.
In applying that approach, the panel considered
the statements at issue, which accused the minister of
refusing to meet with the defendant organization’s
president. See id. at 349, 350 n.2. Because those

19
statements were “not ecclesiastical in nature,” id. at
350 n.2, the panel held that the defamation claim
could be resolved under neutral principles and could
therefore survive dismissal. See id. at 350–51.
In McRaney, the Fifth Circuit relied on a decision
of the Alaska Supreme Court that embraced the same
approach: Marshall v. Munro, 845 P.2d 424 (Alaska
1993). In Marshall, a church official made allegedly
defamatory statements about a pastor, including a
statement that the pastor was divorced. See id. at
425. The official made those statements when responding, as part of his official duties, to an inquiry
from another church where the pastor was seeking
employment. See id. Yet the court held that this ecclesiastical setting was not dispositive. See id. at 428–
29. Rather, the Religion Clauses allowed the pastor’s
defamation claim to proceed because the claim would
not require the court to decide religious questions.
See id.
Two other state high courts also have adopted this
same position:


The Virginia Supreme Court held that the Religion Clauses allowed a deacon to bring a
defamation claim against a pastor because the
veracity of the statement at issue—which accused the deacon of assaulting a member of
the church—did not turn on ecclesiastical
questions, and because the claim thus could be
decided using neutral principles of law. See
Bowie v. Murphy, 624 S.E.2d 74, 76–77, 79–80
(Va. 2006). The court ruled that the ecclesiastical setting in which the statement was made
(a church meeting about removing the deacon
from his position) did not itself bar the claim.
See id. at 79.

20


The Pennsylvania Supreme Court held that
the Religion Clauses allowed a student who
had been expelled from a religious school to
bring a defamation claim based on statements
accusing him of bringing a penknife to the
school. See Connor v. Archdiocese of Philadelphia, 975 A.2d 1084, 1102–06, 1113 (Pa.
2009). The court reasoned that the claim
could be resolved using neutral principles of
law. See id. at 1113. It rejected the defendants’ argument that the First Amendment
barred the claim merely because the statements were made in connection with
disciplinary proceedings. See id. at 1104; see
also id. at 1102–03, 1108 (citing Marshall and
Bowie with approval).

Several intermediate state appellate courts have
also recently adopted the same approach as Banks,
McRaney, and these other decisions.5
See, e.g., Diocese of Palm Beach, Inc. v. Gallagher, 249 So. 3d
657, 664–65 (Fla. Dist. Ct. App. 2018) (holding Religion Clauses
barred priest’s defamation claim, not merely because claim arose
from the context of church discipline, but because claim—which
rested, for example, on statement that priest was unfit to serve—
could not be resolved using neutral principles); Dermody v. Presbyterian Church (U.S.A.), 530 S.W.3d 467, 469–70, 473–74 (Ky.
Ct. App. 2017) (similar); Galetti v. Reeve, 331 P.3d 997, 1002
(N.M. Ct. App. 2014) (rejecting argument that Religion Clauses
barred minister’s defamation claim merely because statements
at issue were made in connection with minister’s termination);
Tubra v. Cooke, 225 P.3d 862, 871–73 (Or. Ct. App. 2010) (holding Free Exercise Clause did not bar pastor’s defamation claim
arising from statements that he misappropriated church funds
and showed a willingness to lie, even though statements were
made by church officials in connection with internal church dispute about pastor’s conduct).
5

21
B. The conflict is acknowledged, mature,
entrenched, and outcome-determinative.
1. Courts and commentators have recognized the
conflict on the question presented. For example, in
Pfeil, the Minnesota Supreme Court observed that
courts applying the Religion Clauses to defamation
claims “have generally adopted one of two approaches.” 877 N.W.2d at 537. The court then
identified numerous decisions on both sides of the conflict, including many of the decisions addressed above.
See id. & nn.9–10.
Other courts have similarly acknowledged the
conflict. See, e.g., Heard, 810 A.2d at 883–84 (recognizing conflict between Marshall and decisions such
as Hutchison and Hiles, and following the latter); Tubra, 225 P.3d at 871–72 & n.10 (recognizing conflict
between Marshall and Heard, and following Marshall). The academic literature also has documented
the conflict.6
2. The conflict is mature and entrenched. Numerous courts have weighed in on each side of the split,

See, e.g., Alexander J. Lindvall, Forgive Me, Your Honor, for I
Have Sinned: Limiting the Ecclesiastical Abstention Doctrine to
Allow Suits for Defamation and Negligent Employment Practices,
72 S.C. L. REV. 25, 36 (2020) (“Courts are sharply divided on
whether the ecclesiastical abstention doctrine immunizes religious officials from defamation suits when the allegedly
defamatory statement was made during a religious proceeding.”); Mark P. Strasser, A Constitutional Balancing in Need of
Adjustment: On Defamation, Breaches of Confidentiality, and the
Church, 12 FIRST AMEND. L. REV. 325, 337 (2013) (observing that
courts applying Religion Clauses to defamation claims have “not
yet agreed on a uniform approach, leading to inconsistent results
and a jurisprudence without a firm foundation”).
6

22
and several of those decisions drew dissenting opinions.7 The arguments on each side of the conflict have
thus been fully aired. The 6-5 conflict on the question
presented is also far too deep and firmly established
to have any prospect of resolving itself.
Nor is further percolation warranted in light of
this Court’s decision in Hosanna-Tabor. Contra Br. in
Opp., Pfeil v. St. Matthews Evangelical Lutheran
Church, No. 16-210, at 16–18 (U.S. Oct. 13, 2016). Hosanna-Tabor did not address the Religion Clauses’
application to defamation claims. It instead expressly
left open the question of how the Religion Clauses apply to tort claims.
See 565 U.S. at 196.
Unsurprisingly, therefore, the conflict here has not
only persisted since Hosanna-Tabor, but has deepened, with the Fifth Circuit and the South Carolina
Supreme Court adopting the neutral-principles approach to defamation claims in post-Hosanna-Tabor
decisions. Numerous intermediate state appellate
courts have also joined each side of the conflict since
Hosanna-Tabor, see supra pp. 16, 20, confirming that
the split will endure unless this Court intervenes.
This Court’s recent decision in Morrissey-Berru
does not alter that conclusion. That decision addressed which employees are “ministers” for purposes
of Hosanna-Tabor’s bar on employment discrimination claims. See 140 S. Ct. at 2063–69. MorrisseyBerru addressed no other claims. Thus, like HosannaSee, e.g., McRaney, 980 F.3d at 1067–75 (Ho, J., dissenting from
denial of rehearing en banc); id. at 1075–82 (Oldham, J., dissenting from denial of rehearing en banc); Pfeil, 877 N.W.2d at 542–
47 (Lillehaug, J., dissenting); Banks, 750 S.E.2d at 608–12 (Toal,
C.J., dissenting); App. 51a–81a (McGee, C.J., concurring in part,
dissenting in part, and concurring in the judgment).
7

23
Tabor, Morrissey-Berru will not resolve the conflict
here. Indeed, in McRaney, the Fifth Circuit panel
mentioned both Morrissey-Berru and Hosanna-Tabor.
See 966 F.3d at 350 n.3. The judges dissenting from
the denial of rehearing en banc also relied heavily on
those decisions. See 980 F.3d at 1067, 1069 (Ho, J.,
dissenting from denial); id. at 1075 (Oldham, J., dissenting from denial). Yet the panel still exacerbated
the conflict and allowed a defamation claim that arose
from an ecclesiastical setting to proceed.
It is also true that an eight-Justice Court denied
certiorari in Pfeil, and that the Court earlier denied
certiorari in Banks. See Pfeil v. St. Matthews Evangelical Lutheran Church, 137 S. Ct. 493 (2016);
Brantley v. Banks, 574 U.S. 814 (2014). The Court,
however, often grants certiorari on an issue after
denying it in the past. In Hosanna-Tabor itself, the
petitioner noted that the Court had denied certiorari
in three ministerial exception cases, but observed that
the relevant conflict had recently “become sharper
and deeper.” Pet. for Writ of Cert., Hosanna-Tabor,
No. 10-553, at 24–25 (U.S. Oct. 22, 2010). The same
is true here.
3. The conflict on the question presented is not an
academic disagreement; it instead leads to contrary
results in cases with equivalent facts. For example:


Pfeil and Banks involved equivalent statements (accusing the plaintiffs of dishonesty)
made in equivalent settings (church meetings
about whether to discipline the plaintiffs).
Pfeil held that the First Amendment barred
the resulting defamation claim; Banks held
that it did not. Compare Pfeil, 877 N.W.2d at
531, 538, 542 with Banks, 750 S.E.2d at 606,
608.

24


Hutchison and McRaney involved equivalent
statements (accusing ministers, in essence, of
being difficult to work with) made in equivalent settings (terminating the ministers from
their positions in church leadership).
Hutchison held that the First Amendment
barred the resulting defamation claim;
McRaney held that it did not. Compare
Hutchison, 789 F.2d at 392–93, 396 with
McRaney, 966 F.3d at 349–51. See also supra
p. 18.



Bole and Tubra involved equivalent statements (accusing pastors of misappropriating
church funds) made in equivalent settings (internal church disputes relating to the pastors’
employment).
Bole held that the First
Amendment barred the resulting defamation
claim; Tubra held that it did not. Compare
Bole, 103 So. 3d at 48, 51, 71–72 with Tubra,
225 P.3d at 871–73.

It is unsound for the First Amendment to produce
different outcomes in equivalent cases brought in different jurisdictions. This Court should grant review
to eliminate this disparity.
II. The decision below is incorrect.
This Court’s review is also warranted to correct
the decision below. The Court has not directly addressed the application of the Religion Clauses to
defamation claims. It has, however, articulated a set
of relevant principles in First Amendment cases on
other types of civil claims in religious settings. The
decision below conflicts with those principles.

25
1. This Court has repeatedly applied the Religion
Clauses to common-law claims about ownership of
church property. See Jones, 443 U.S. at 602. Those
decisions establish a number of guiding principles.
To start, courts have “general authority” to resolve church property disputes. Id. Indeed, courts
have an “obvious and legitimate” interest in providing
a civil forum for peacefully and conclusively resolving
those disputes. Id.
At the same time, the First Amendment bars
courts “from resolving church property disputes on the
basis of religious doctrine and practice.” Id. Courts
must not, in other words, decide ecclesiastical questions. See id. To avoid entanglement with spiritual
matters and interference with religious exercise,
courts must instead leave rulings on ecclesiastical
questions to religious organizations. See id. at 602–
03, 606.
Subject to that limitation, however, courts may
exercise their general authority to resolve church
property disputes. Id. at 602. It follows that courts
may resolve these disputes if they can do so using neutral principles of law. Id. at 602, 604; see also
Presbyterian Church v. Mary Elizabeth Blue Hull
Mem’l Presbyterian Church, 393 U.S. 440, 449 (1969).
If, for example, a property dispute turns on secular language in deeds, charters, and statutes, a court
may resolve the dispute. See Jones, 443 U.S. at 603.
If, in contrast, a dispute turns on religious language
or concepts, the court must defer to the resolution of
those matters “by the authoritative ecclesiastical
body.” Id. at 604.

26
As the Court explained in Jones, this neutralprinciples approach strikes the proper balance between religious liberties and secular legal rights. It
avoids entanglement with religion and interference
with free exercise, while still providing a needed forum for the resolution of civil disputes. See id. at 602,
605–06.
2. These principles apply equally to common-law
defamation actions. As with property claims, courts
have general authority to resolve defamation claims.
Courts also have compelling reasons to provide a
peaceful forum for resolving disputes over reputational harm, rather than leaving the parties to settle
these disputes through their own devices—as Alexander Hamilton learned the hard way.
Even so, courts would become entangled with religion and interfere with free exercise if they used
defamation actions to rule on ecclesiastical questions.
Thus, just as the Religion Clauses bar courts from ruling on ecclesiastical issues in property disputes, those
clauses also bar courts from ruling on ecclesiastical issues in defamation cases. See, e.g., McRaney, 966 F.3d
at 348–49; Banks, 750 S.E.2d at 607–08.
To avoid these problems, the same touchstone
that guides courts in church property disputes—
whether the dispute can be resolved based on neutral
principles of law—should also guide courts in defamation disputes. If courts can resolve a defamation claim
by applying neutral legal principles, as opposed to deciding ecclesiastical questions, the Religion Clauses
should not impose an obstacle. See, e.g., McRaney, 966
F.3d at 349–50; Banks, 750 S.E.2d at 607–08.
To decide whether a defamation claim can be resolved based on neutral principles, a court should

27
consider whether the truth or falsity of the statement
turns on an ecclesiastical matter. See, e.g., Banks, 750
S.E.2d at 607; App. 67a–68a, 71a–81a. If so, the Religion Clauses bar the claim. Otherwise, they do not.
3. The panel majority in this case interpreted the
Religion Clauses to bar defamation claims even when
the claims can be resolved using neutral principles of
law. As shown above, that decision departs from this
Court’s precedents. Although the panel majority identified several justifications for its approach, none is
persuasive.
First, the court reasoned that this Court has expressed an “aversion for entanglement in
ecclesiastical matters.” App. 18a. In Jones, however,
this Court held that applying neutral principles of law
avoids entanglement in ecclesiastical matters. See
443 U.S. at 603. So too here.
Second, the court asserted that it “will be a rare
occurrence when a religion’s internal statements are
purely secular.” App. 19a. This case and the many
others discussed above show, however, that communications within a church often do include secular
statements. See supra pp. 13–20. In any event, even
if secular statements in church settings are rare, the
panel majority’s approach mistakenly treats them as
nonexistent.
Third, the court stated that resolving defamation
claims arising from communications within a church
might have a chilling effect. App. 19a. That begs the
question. If, as argued here, some false statements
made in ecclesiastical settings are actionable, then
chilling those false statements is a good thing.
Fourth, the court stated that “we cannot favor religions with scripture and disfavor religions without

28
scripture.” App. 19a. The neutral-principles approach does not, however, favor religions with
scripture. It instead treats all religions equally by
preventing courts from ruling on matters of religious
doctrine, whether that doctrine is written or unwritten.
Finally, the court asserted that the Lippards’ defamation claim would require a court to “decide the
rightness or wrongness” of the statements at issue,
App. 34a, or determine whether the statements are
“proper,” id. at 49a, or pass judgment on “how [the
church] should react to what it considers improper
conduct,” id. at 50a. As Chief Judge McGee explained,
however, the defamation claim would not require a
court to do those things; it instead would require a
court only to determine whether the statements are
true or false. See id. at 78a, 80a.
For these reasons, the Court of Appeals failed to
justify its categorical rule that the Religion Clauses
bar defamation claims that arise from ecclesiastical
settings, even when the claims can be resolved using
neutral principles of law.
4. Nor do this Court’s decisions in Hosanna-Tabor
and Morrissey-Berru justify the Court of Appeals’ approach. It is true that some courts have reasoned that
those decisions support a categorical bar on defamation claims that arise from ecclesiastical settings. See,
e.g., Pfeil, 877 N.W.2d at 537, 541–42. Other courts
have disagreed. See, e.g., McRaney, 966 F.3d at 350
n.3 (mentioning Hosanna-Tabor and Morrissey-Berru
but permitting defamation claim that arose from ecclesiastical setting to proceed); Banks, 750 S.E.2d at
607–08 (similarly permitting defamation claim that
arose from ecclesiastical setting to proceed after Hosanna-Tabor); see also id. at 611 (Toal, C.J.,

29
dissenting) (discussing Hosanna-Tabor). At minimum, this disagreement over the meaning of the
Court’s precedents confirms the need for the Court’s
guidance. In any event, the latter courts have the correct view.
Hosanna-Tabor and Morrissey-Berru held that
the Religion Clauses bar employment discrimination
claims brought by ministers who challenge their terminations by religious employers. See HosannaTabor, 565 U.S. at 196; Morrissey-Berru, 140 S. Ct. at
2060–61. That rule rests on special concerns raised
by employment discrimination claims—concerns
about “[r]equiring a church to accept or retain an unwanted minister” and giving courts the power “to
determine which individuals will minister to the faithful.” Hosanna-Tabor, 565 U.S. at 188–89.
Those concerns are not present here. Unlike employment discrimination claims, defamation claims do
not require a church to accept or retain an unwanted
minister. That is true even when the defamatory
statements were made during a church proceeding to
terminate a minister. In those circumstances, a successful defamation claim would give the minister
redress for the false statements, but it would not overturn the church’s decision to terminate her. Thus,
even in cases arising from the termination of ministers’ employment, the considerations that motivated
Hosanna-Tabor and Morrissey-Berru do not justify a
categorical prohibition on defamation claims.
In any event, even if Hosanna-Tabor and Morrissey-Berru did foreclose defamation claims arising from
proceedings in which ministers are terminated, that
still would not justify the sweeping rule adopted by
the Court of Appeals here. Among other problems:

30


The Court of Appeals’ rule bars defamation
claims even when the plaintiffs are church
members, as opposed to ministers.
See
App. 2a; see also, e.g., Pfeil, 877 N.W.2d at
530, 542. Here, Mr. Lippard was not a minister, yet the Court of Appeals barred his claim.
App. 2a–3a.



The Court of Appeals’ rule bars defamation
claims even when a minister was not terminated. Here, Mrs. Lippard was retained as the
church pianist, yet the Court of Appeals
barred her claim. App. 5a–6a.



The Court of Appeals’ rule also bars defamation claims even when the statements at issue
were made after termination proceedings
ended. Here, many of the statements at issue
were made months after the church vote on
Mrs. Lippard’s dismissal, yet the Court of Appeals barred the Lippards’ claims. App. 27a–
28a, 30a–34a, 49a–50a.

In sum, the decision below interprets the Religion
Clauses to permit religious officials to defame at will,
so long as their statements have any connection to an
ecclesiastical matter. This Court should grant review
to clarify that its precedents do not support that overbroad reading of the First Amendment.
III. The question presented is recurring and important.
This Court’s review is also warranted because the
question presented arises often and has significant
consequences.
The large number of appellate decisions that have
addressed the question presented show that it arises

31
regularly. See supra pp. 12–20. Indeed, within the
last five years alone, at least eight published appellate
decisions have addressed this issue: Alief, Dermody,
Gallagher, McRaney, Orr, Pfeil, Sumner, and the decision below in this case. Nothing suggests that pace
will slow.
The question presented is also important. See
McRaney, 980 F.3d at 1082 (Oldham, J., dissenting
from denial of rehearing en banc) (recognizing that
the application of the Religion Clauses to defamation
claims is a question of exceptional importance). The
answer to that question decides whether persons defamed in ecclesiastical settings may recover damages
for reputational and pecuniary harm. It also decides
whether religious organizations and officials must pay
those damages. Because every state has religious organizations and a cause of action for defamation,
these practical consequences have immense scope.
The question presented also implicates an important issue of constitutional law: how to balance
religious freedoms and secular legal rights. The Court
confirmed the significance of this issue vis-à-vis employment discrimination claims when it granted
review in Hosanna-Tabor and Morrissey-Berru. The
Court also acknowledged that, when the circumstances arose, the Court might need to address this
issue for other types of claims, including tort claims.
Hosanna-Tabor, 565 U.S. at 196.
Those circumstances have now arisen. Depending
on the correct answer to the question presented, one
of two things is true: Either persons in many jurisdictions are being wrongly deprived of redress for harm
to their reputations, or persons and organizations in
many other jurisdictions are being wrongly deprived
of their religious freedoms. The balance struck by the

32
First Amendment between religious freedoms and
secular legal rights should not vary from state to state
in this manner.
Moreover, the conflict here exemplifies broader inconsistency among the lower courts on related issues.
For example, courts have adopted conflicting approaches on how the Religion Clauses apply to claims
for tortious interference,8 negligent hiring and supervision,9 publication of private facts,10 hostile work
environments,11 and breaches of contract.12
All of these conflicts flow from an underlying disagreement over the legal principles that govern the
application of the Religion Clauses to civil claims.
Some courts follow Jones and ask whether a given
civil claim can be resolved using neutral principles of
law. Other courts limit the neutral-principles approach to property disputes and apply a categorical

8

See McRaney Pet. 24–26, 29–31.

See, e.g., Bandstra v. Covenant Reformed Church, 913 N.W.2d
19, 38–40 & nn. 2–3 (Iowa 2018); Lindvall, supra, at 28–29, 39–
42.
9

10

See, e.g., Strasser, supra, at 326, 359, 371.

See, e.g., Demkovich v. St. Andrew the Apostle Parish, 973 F.3d
718, 720–21, 726–27 (7th Cir. 2020), reh’g en banc granted, opinion vacated (Dec. 9, 2020). In Demkovich, the panel identified a
circuit split on the question whether ministers may bring hostile
work environment claims that do not challenge tangible employment actions (such as hiring and firing). See id. The panel held
that the Religion Clauses permit ministers to bring those claims.
See id. at 720–21. The Seventh Circuit has since taken the case
en banc, further demonstrating the significance of these issues.
11

See, e.g., Charles A. Sullivan, Clergy Contracts, 22 EMP. RTS.
& EMP. POL’Y J. 371, 400–01 (2018).
12

33
prohibition on other types of claims that arise from ecclesiastical settings.13
The lower courts thus need this Court’s guidance—not only on the Religion Clauses’ application to
defamation claims, but also on the legal principles
that govern the Religion Clauses’ application to civil
claims as a general matter. By granting review in this
case, this Court can provide guidance on both.
IV. This case is an excellent vehicle for resolving the question presented.
This case is an ideal vehicle. The question presented was fully litigated and resolved below. It is
also outcome-determinative in this case. The Court of
Appeals relied solely on the Religion Clauses to affirm
summary judgment for Holleman and Hix; the court
adopted no alternative grounds for its decision.
App. 2a.14

See, e.g., Bilbrey v. Myers, 91 So. 3d 887, 891 (Fla. Dist. Ct.
App. 2012) (describing these conflicting approaches); Bandstra,
913 N.W.2d at 38–40 (similar). Compare, e.g., Hutchison, 789
F.2d at 396 (holding that neutral-principles approach applies
only in property cases) with, e.g., McRaney, 966 F.3d at 349–50
(holding that neutral-principles approach applies in tort cases);
see also McRaney Pet. 27–32.
13

The Court of Appeals stated at the end of its opinion that it
could not examine ecclesiastical matters “under the First
Amendment or the North Carolina Constitution.” App. 51a. The
opinion referred to the North Carolina Constitution only this one
time, and the remainder of the opinion makes clear that the
court’s decision rested on the First Amendment. See, e.g., id. at
2a, 11a–12a. At minimum, the opinion’s isolated reference to the
North Carolina Constitution fails to satisfy the clear-statement
requirement for identifying adequate and independent state-law
grounds. See Michigan v. Long, 463 U.S. 1032, 1041 (1983).
14

34
It is true that, in her separate opinion concurring
in the judgment, Chief Judge McGee expressed the
view that defendants were entitled to summary judgment on unrelated state-law grounds. See App. 81a–
89a. The majority, however, declined to reach those
issues, deciding the case instead under the First
Amendment alone. See id. at 51a. Thus, any statelaw issues in this case pose no obstacle to this Court’s
review. The Court can grant review, resolve the question presented, and remand for consideration of these
state-law issues.
It is also true, as mentioned above, that the defendant in McRaney has recently sought this Court’s
review, and the first question presented in McRaney
overlaps with the question presented in this case. See
McRaney Pet. i. Some of the facts in this case differ
from those in McRaney, however, in ways that make
this case a particularly useful vehicle.
For example, in McRaney, the plaintiff is a minister. Id. at 3. Thus, McRaney does not afford the Court
an opportunity to address how the Religion Clauses
apply to defamation claims brought by non-ministers.
See id. at 3 n.1.
This case, in contrast, affords an opportunity for
the Court to address that issue. Here, Mr. Lippard,
was a member of Diamond Hill; he was not a minister.
See App. 3a. Mrs. Lippard, in turn, was both a Diamond Hill member and the church pianist. Id. The
Lippards do not dispute that, as the church pianist,
Mrs. Lippard was effectively a minister of Diamond
Hill under the Court’s decisions in Hosanna-Tabor
and Morrissey-Berru. Thus, in this case, the Court
can provide guidance on whether the Religion Clauses
apply differently to defamation claims brought by
ministers and by non-ministers.

35
Furthermore, the plaintiff in McRaney had his
employment terminated. McRaney Pet. 3. Mrs. Lippard did not have her employment terminated.
App. 5a–6a. This case therefore offers the opportunity
to address whether that distinction matters to the
First Amendment analysis of a defamation claim that
arises from a termination proceeding.
Finally, the defamatory statements at issue in
McRaney were made before the ecclesiastical decision
at issue (the plaintiff’s termination). See McRaney
Pet. 6–7. Here, some of the defamatory statements at
issue were made after the ecclesiastical decision at issue (the church vote to retain Mrs. Lippard as church
pianist). See App. 6a. Thus, even if the Religion
Clauses might sometimes bar defamation claims that
arise from ecclesiastical proceedings, the Court could
clarify in this case whether that bar extends to statements made after the ecclesiastical proceedings have
ended.
For these reasons, the Court should grant review
in this case, whether or not it also grants review in
McRaney. At minimum, if the Court grants review in
McRaney, it should hold this case for McRaney.
CONCLUSION
The petition for a writ of certiorari should be
granted.

36
Respectfully submitted.
JULIAN H. WRIGHT, JR.
Counsel of Record
ERIK R. ZIMMERMAN
BRANDON LAROSE
ROBINSON, BRADSHAW
& HINSON, P.A.
101 N. Tryon St.
Suite 1900
Charlotte, NC 28246
(704) 377-2536
jwright@robinsonbradshaw.com
Counsel for Petitioners

February 22, 2021

